FaegreBD.com

Richard A. Duncan

Partner
richard.duncan@FaegreBD.com
Direct +1 612 766 8612

October 30, 2019

VIA E-FILING AND U.S. MAIL

Clerk of Court

FAEGRE BAKER USA ¥ UK » CHINA
DANIELS

Faegre Baker Daniels LLP

2200 Wells Fargo Center v 90 South Seventh Street
Minneapolis » Minnesota 55402-3901

Main +1 612 766 7000

Fax +1 612 766 1600

The Supreme Court of the United States

One First Street, NE
Washington, DC 20543

Re: Kimberly Watso, et al. v. Jodi Harpstead, et al.
Supreme Court Case No. 19-550

Dear Clerk:

Enclosed in the above-referenced matter please find an executed Waiver on behalf of Judge John E.
Jacobson, in his official capacity, and the Tribal Court of the Shakopee Mdewakanton Sioux (Dakota)

Community,

Very truly yours,

“

enti

Richard A. Duncan

Enclosure

CC: Robert Sirianni, Jr., Counsel for Petitioner
James Andreen, Counsel for Scott County
Aaron Winter, Counsel for Jodi Harpstead, in her official capacity as Commissioner of
Minnesota Department of Human Services
Joseph Plumer, Counsel for Judge Mary Ringhand and Tribal Court of the Red Lake Band of

Chippewa Indians

US.125249662.01
